COMMUNITY ORIENTED POLICING SERVICES GRANTS 

    TO THE ASSINIBOINE AND SIOUX TRIBES 

        DEPARTMENT OF PUBLIC SAFETY 

              POPLAR, MONTANA 



           U.S. Department of Justice 

         Office of the Inspector General 

                  Audit Division 



          Audit Report GR-60-06-010 

             September 21, 2006 

          COMMUNITY ORIENTED POLICING SERVICES GRANTS 

              TO THE ASSINIBOINE AND SIOUX TRIBES 

                  DEPARTMENT OF PUBLIC SAFETY 

                       POPLAR, MONTANA 


                            EXECUTIVE SUMMARY



       The Office of the Inspector General, Audit Division, has
completed an audit of the grants awarded by the U.S. Department of
Justice (DOJ), Office of Community Oriented Policing Services (COPS),
to the Assiniboine and Sioux Tribes, Department of Public Safety
(DPS). The purpose of the grants is to enhance community policing.
Between September 1999, and September 2003, the DPS was
awarded eight grants totaling $5,960,821 to renew or hire 44 new
police officers; provide training and equipment for new and existing
officers; and upgrade its management information system.

       We reviewed the DPS's compliance with six essential grant
conditions that include budgeting for local officer positions, hiring of
officers, local match requirements, reimbursement requests, retention
of officer positions, and community policing. We found weaknesses in
two of these areas: reimbursement requests and retention of officer
positions. As a result of the deficiencies shown below, we question
$2,799,475 in grant funds received and identified $79,840 in funds to
better use. 1 Specifically, we found:

   • 	 $453,474 paid for salaries and fringe benefits from a grant that
       did not have all officer positions filled for the required award
       period,

   • 	 $908,595 paid for unsupported and unallowable salaries and
       fringe benefits,

   • 	 $16,332 paid for an officer position that was filled by a 

       non-COPS officer, 


   • 	 $860,482 paid for equipment and services that were not
       supported or approved in the Financial Clearance Memorandum,

    The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and the definition of
questioned costs.
  • 	 $560,592 in questioned costs resulting from the retention 

      requirement not met, 


  • 	 $79,840 in Funds to Better Use resulting from fringe benefits
      that were approved in the Financial Clearance Memorandum and
      not paid, and officers not retained as required.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope
and methodology appear in Appendix I.




                               - ii ­
                                TABLE OF CONTENTS 


                                                                                     Page

INTRODUCTION ....................................................................... 1 


       The Crime Act .................................................................... 1 


       The Community Oriented Policing Services Program ................. 1 


       The Assiniboine and Sioux Tribes .......................................... 2 


       Our Audit Approach ............................................................. 3 


FINDINGS AND RECOMMENDATIONS ....................................... 4 


       Budgeting for Officers .......................................................... 4 


       Hiring of Officers................................................................. 5 


       Source of Local Matching Funds ............................................ 7 


       Reimbursement Requests ..................................................... 8 


       Retention of Officer Positions .............................................. 11 


       Community Policing Activities ............................................. 13 


       Conclusion ....................................................................... 15 


       Recommendations ............................................................ 15 


APPENDIX I - OBJECTIVES, SCOPE AND METHODOLOGY ........ 18 


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .... 22 


APPENDIX III- UNSUPPORTED EXPENDITURES ••••••••••••••••••••• 26 


APPENDIX IV - UNALLOWABLE EXPENDITURES ..................... 28 


APPENDIX V- UNALLOWABLE PERSONNEL SALARIES ............ 29 

APPENDIX VI- GRANTEE'S RESPONSE TO THE DRAFT
             Fti:I'()Ftlr .........................................................   ~:2 



APPENDIX VII- COPS RESPONSE TO THE DRAFT REPORT ...... 38 


APPENDIX VIII- ANALYSIS AND SUMMARY OF ACTIONS 

              NECESSARY TO CLOSE THE REPORT ............. 47 

                              INTRODUCTION


                                The Crime Act

       The Violent Crime Control and Law Enforcement Act of 1994
(Crime Act) authorized $8.8 billion for the hiring and redeployment of
100,000 additional officers. The goal of the Crime Act is to increase
the number of officers on the nation's streets by providing police
agencies throughout the country with grants to hire and redeploy
police officers. 2 A central element of the Crime Act is community
policing, which encourages the strengthening of police-citizen
cooperation as a means to control crime, maintain order, and improve
the quality of life.

       The Tribal Resources Grant Program (TRGP) was developed by
the Community Oriented Policing Services (COPS) Office to meet law
enforcement needs in Native American communities. This program is
open to all federally recognized tribes that are eligible for funding and
services from the Bureau of Indian Affairs. The TRGP is designed to
fund the hiring of sworn police officers for tribal police departments
and provide training and equipment for new and existing sworn
officers. For fiscal year 2006, approximately $15 million will be
available through the COPS TRGP. Since 1999, the COPS Office has
received over $280 million to improve public safety in Native American
communities.


The Community Oriented Policing Services Program

      Two separate components within the Department of Justice have
been tasked with implementing and managing the program to fund the
hiring and redeployment of additional police officers - the COPS Office
and the Office of Justice Programs (OJP). The COPS Office was
created to carry out the goal of the Crime Act and has primary
responsibility for the program, such as developing grant requirements,
selecting recipients, determining award amounts, and monitoring grant
recipients to ensure compliance with grant requirements. The
responsibilities of OJP are more limited in nature and generally include
reviewing and processing grantee reimbursement requests.

2
   Hiring grants are generally for 3 years. For additional background on the COPS
program, the types of grants available, and the Department of Justice oversight
responsibilities, see Appendix II.


                                      - 1­
   The Assiniboine and Sioux Tribes

         The Assiniboine and Sioux Tribes are in the northeast corner of
  Montana, on the north side of the Missouri River. The reservation is
  110 miles long and 40 miles wide, encompassing 2,093,310 acres
  (approximately 3200 square miles). Of this, approximately 378,000
  acres are tribally owned and 548,000 acres are individually allotted
  Indian lands. There are an estimated 10,000 enrolled tribal members,
  of whom approximately 6,000 reside on or near the Reservation. The
  approved general fund budget for 2006 was $10.7 million, of that, $3
  million was proposed for the Department of Public Safety. In its grant
  applications, the DPS listed among its major public safety issues
  violent crimes against persons, property crimes, domestic violence,
  and child abuse. The most serious law enforcement needs included
  the hiring of new officers, officer uniforms and equipment,
  basic/academy training, and the acquisition of new police vehicles.

         As shown below, the COPS awarded the DPS eight grants
  totaling $5,960,821 to renew or hire 44 new police officers, and
  provide training and equipment for new and existing officers.

    GRANTS TO THE ASSINIBOINE AND SIOUX TRIBES DEPARTMENT OF
                          PUBLIC SAFETY

                       Awa~d                Number
                       Start      Award        of      Award          Grant
 Grant   ~!ogr:am       Date     End Date   Officers   Amount        Number
 TRGP Equipment                                               $      1999-HE­
                      09/01/99   12/31/05     n/a
                                                        508,259      WX-0028
   TRGP Hiring        09/01/99 07/31/05       20               $     1999-HH­
                                                       1,784,120     WX-0028
      TRGP                                                    $      2000-HE­
                   08/01/00 07/31/05          n/a
Equipment/Training                                      659,861      WX-0042
   TRGP Hiring        08/01/00 07/31/06        7              $      2000-HH­
                                                        596,302      WX-0020
Mental Health and
                                                              $      2001-HM­
Community Safety      09/01/01   08/31/04      2
                                                        202,492      WX-0008
Initiative ­ Hiring
      TRGP                                                $          2002-HE­
                   08/01/02      12/31/05     n/a
Equipment/Training                                     949,047       WX-0049



                                    -2­
       Tribal Hiring                                                     $    2003-HR­
                             09/01/03 08/31/06            15
         Renewal                                                1,060,740     WX-0002
       Tribal Court          09/01/03 08/31/06            n/a            $    2003-HE­
                                                                 200,000      WX-0077
          Total                                           44             $
                                                                5,960,821
                                       . .
Source: Off1ce of Commumty Or1ented Pohcmg Serv1ces .


    Our Audit Approach

           We test compliance with what we consider to be the most
    relevant conditions of the grants. Unless otherwise stated in our
    report, the criteria we audit against is contained in the appropriate
    COPS grant owner's manuals, copies of which are provided to each
    locality upon acceptance of a grant. 3 We tested the DPS's:

         • 	 Budgeting for officers to determine whether the grantee
             planned to maintain the number of locally funded officer
             positions it had before receiving a COPS grant.

         • 	 Hiring of officers to determine whether the number of officers
             on board actually increased the police force by the number of
             positions funded by the grants.

         • 	 Source of local matching funds to determine whether the
             source of matching funds was from local monies not previously
             budgeted for law enforcement.

         • 	 Reimbursement requests to determine whether requests for
             reimbursement contained only allowable costs.

         • 	 Retention of officer positions to determine the likelihood that
             the COPS-funded officer positions will be retained after the
             grants' conclusion. For grants that have ended, we determine if
             grant-funded positions have been retained.

         • 	 Community policing activities to determine whether the types
             of activities stated in its grant applications were performed.



   3
     We also use the COPS Office's Grant Monitoring Standards and Guidelines for Hiring
   and Redeployment as criteria, where appropriate.


                                                  - 3 ­
                      FINDINGS AND RECOMMENDATIONS

         COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS


       The DPS failed to comply with two of the six grant requirements
       we tested. We found weaknesses in the DPS's reimbursement
       requests and retention efforts. As a result, we are reporting
       $2,799,475 in questioned costs and $79,840 in funds to better
       use.


Budgeting for Officers

       The Crime Act states that federal funds under the COPS program
are not to be used to supplant existing local or state funds. Simply
defined, supplanting is the use of federal funds to replace local funds.
COPS guidelines require that grant funds be used to increase resources
beyond those that have been committed locally for law enforcement
purposes. In our judgment, supplanting is indicated when a grantee
budgets for decreases in local law enforcement spending either in
anticipation of or during COPS funding. In general, absent a
demonstrated justification unrelated to the COPS grant, the grants will
be expected to increase the entity's force level above the number of
funded (filled and vacant) sworn officers existing on February 1, 1999
(i.e. the "baseline leve1"). 4 If a grantee uses federal funds to replace
local funds, additional police officers are not added to the nation's
streets. Instead, federal funds are used to pay the salaries and fringe
benefits of existing police officer positions.

       To test the DPS's budgetary commitment to local law enforcement, we
determined whether the DPS planned to maintain the number of locally funded
officer positions it had before receiving a COPS grant. We reviewed official local
budgets to identify the dollars funded for totallocallaw enforcement and the
dollars funded for total law enforcement salaries and fringe benefit budgets.



4
    According to COPS' Grant Monitoring Standards and Guidelines for Hiring and
Redeployment, the "baseline level" is the funding and the number of positions for
sworn officers as of each grant's threshold review date as set by the COPS Office. For
example, since the earliest COPS grant included in our audit was a 1999 TRGP Hiring
Grant, the baseline date is February 1, 1999. If the baseline funding increases during
the grant period, the highest documented level of funding or positions for sworn
officers becomes the "new baseline level."


                                        -4­
                       ASSINIBOINE AND SIOUX TRIBE 

                         LAW ENFORCEMENT BUDGET 

Fiscal ¥ear5              199 200 200 20Q 200 20Q                         2001   200
                           9    0   1     2   3      4                     5      6
Local Law
Enforcement                 $1.1     $1.0     $1.0   $1.2   $1.2   $1.3   $1.2   $1.3
Budget6
Local Law
Enforcement
                            $0.8     $0.6     $0.6   $0.6   $0.7   $0.8   $0.7   $0.8
Salaries and Fringe
Benefits Budget
Number of Officers:
  COPS Officers
Authorized
                             20       27       29    29     44     44     44     44
Source: The DPS budgets and grant award documents.


       Our testing indicates that the total funds budgeted for local law
enforcement and for salaries and fringe benefits decreased in 2000
and again in 2005 from the previous year's amount. The Legal
Division of the COPS Office determined in March 2003 that the
decrease in funding for 2000 was the result of fiscal distress and that
grant conditions were met. For 2005, the decrease did not impact the
number of locally-funded officers as the number of officers funded
increased by one position for 2005 and an additional 2 positions for
2006. Overall, the number of locally-funded positions increased from
15 in 2000, to 18 in 2006.


Hiring of Officers

      A key element of the Crime Act is to provide funding for
increasing the total number of police officers nation-wide by 100,000.
To that end, COPS guidelines require that the grantee continue to hire
as many new, locally-funded officers as they would have without grant
funding, and that grantees take positive, timely steps to fill any
vacancies created on or after the grant award. Failure to hire the
required number of officers is a potential indicator of supplanting.
Guidance from COPS states that COPS grant funds must not be used
to replace funds that eligible agencies otherwise would have been
devoted to future officer hiring. In other words, any hiring under the


5
    The DPS's fiscal year ends September 30. 

6
    The budgets shown exclude COPS grant funds. Amounts shown are In $ millions. 



                                             -5­
COPS program must be in addition to, and not in lieu of, previous
hiring plans.

       We assessed the DPS's on-board officer strength to determine if
it increased its sworn officer strength by the number of officers funded
with the COPS grants. As illustrated in the following graph, we
compared the total number of officers the DPS should maintain as a
result of the COPS grants (i.e. target officer level) to its total number
of actual officers on a yearly basis. 7 Barring unusual circumstances,
the grantee should be within the target level. If the number of "actual
officers" falls below the "target level" for an extended period, we
determine the cause and make a determination as to whether, in our
judgment, supplanting has occurred.


                             Assiniboine and Sioux Tribes
                       Target Officer Level vs. Actual Officer Level




                                    Period of Time

     • Target Officer Level                    -Actual Officer Level
              Source: The DPS personnel and payroll records

      Our analysis shows that the DPS was not within the target band
for 48 of the 76 months reviewed. During the grant-funding period
the DPS was 1 to 8 positions below its target level for the 48 months.
DPS officials stated that it was difficult to obtain and keep qualified
7
  The details of our testing for hiring are contained in Appendix I. The graph and our
resulting analysis are for hiring grants only. Because the grantee did not provide us a
monthly on-board officer total, we are using the number of locally-funded officers
approved in the annual budgets and extending that number for the entire fiscal year
as the number of officers on-board.


                                          -6­
applicants. Reasons given included the failure of applicants to
complete the initial background investigation due to criminal histories,
the standards set for hiring, the inability to pass the written or physical
fitness requirements, accepting higher paying jobs with local and state
governments, and failure to complete the police academy.
Additionally, officials stated that many of the applicants that did
become officers were later dismissed due to committing violations.
This was confirmed by our review of personnel records. In our
judgment, the DPS is not in violation of the nonsupplanting
requirement. Our conclusion is based on the shortage of applicants
who can successfully meet the requirements for law enforcement
positions and their ability to maintain the required standards once they
are in the position.


Source of Local Matching Funds

       Absent a waiver for severe financial distress, grants awarded
from the TRGP will generally fund up to 75 percent of the total project
costs, including approved salary and benefits of entry-level police
officers (up to a maximum of $75,000 per officer over 3 years), basic
and specialized law enforcement training and equipment, technology,
and vehicles. The COPS Office's nonsupplanting guidelines require
that the remaining funds come from local sources not previously
budgeted for law enforcement. The COPS Office's financial and local
match guidelines require grantees to establish and maintain
accounting systems and financial records to accurately account for
funds awarded and disbursed. These records need to include both
federal funds and all matching funds and should clearly show the
source of the match, the amount of the match, and when the match
was contributed. Failure to provide the necessary matching funds
from sources not previously budgeted for law enforcement or from
equitable sharing proceeds 8 can be an indicator of supplanting.

     Our audit did not require an analysis of the source of local
matching funds for any of the grants audited as the DPS received a
100 percent waiver of the local match for all grants.




8
  Equitable sharing funds are local proceeds from asset forfeiture investigations and
prosecutions.



                                        -7­
Reimbursement Requests

       Grantees are only allowed reimbursement for those costs that
are reasonable in nature and permissible under the specific guidance
of the grant. For example, COPS guidelines state that grantees are
eligible for reimbursement of costs associated with specialized law
enforcement training; basic equipment, such as uniforms and
weapons; and technology, such as computer hardware and software
approved in the financial clearance memorandum. To determine
whether the grantee's reimbursement requests complied with grant
terms, we compared the grantee's salaries, fringe benefits and other
items approved in the Financial Clearance Memorandum and Budget
Worsheets, with costs the grantee claimed in its reimbursement
requests. To determine the amounts and budget categories actually
charged to the grants we reviewed the Organizational Income
Statements for each grant. Additionally, at the Tribe's Personnel
Office we reviewed Personnel/Payroll Add or Change Forms and
Request for Action forms for all the officers' names provided to us by
the DPS and Personnel Officer that were paid from the four hiring
grants. From these documents we determined the hourly rate paid to
the officers and the period they were employed by the grants. When
grantees misstate costs in their reimbursement requests, the risk that
taxpayer funds will be misspent increases and additional grantees may
be deprived of grant funds, thereby resulting in less benefit to the
public.

      TRGP Hiring Grant No. 1999-HH-WX-0028: The DPS was
reimbursed $1,784,120 for this grant, which is 100 percent of the
award amount. Of this amount, we are questioning $1,165,229 for
unallowable costs charged to the grant as follows:

  • 	 $482,152 in unsupported salaries. Our reconciliation of the
      salaries paid to the list of officers provided to us by the DPS and
      Personnel Office, as shown by Personnel/Payroll Add or Change
      Forms, did not agree with the total salaries paid as shown by the
      Organizational Income Statement. The Organizational Income
      Statement showed $1,402,885 charged to the salary account
      code (3020) for 2000 through 2005. However, using the hourly
      rate and the length of employment under the grant as shown by
      the above personnel files that were provided to us, we could only
      support salary costs totaling $920,733 when reconciled to the



                                 -8­
      Financial Clearance Memorandum, resulting in unsupported costs
      of $482,152.

   • 	 $16,332 in unallowable salary to an individual that was not a
       sworn law enforcement officer,

   • 	 $200,400 in unallowable fringe benefits (vacation, $80,400;
       worker's camp $120,000) that were approved in the Financial
       Clearance Memorandum but not charged to the grant,

   • 	 $9,128 in unallowable fringe benefits (State Unemployment Tax)
       that exceeded the amounts approved in the Financial Clearance
       Memorandum,

   • 	 $3,743 in unallowable fringe benefits (federal unemployment
       tax) that were not approved in the Financial Clearance
       Memorandum, and,

  • 	 $453,474 in unallowable salaries and fringe benefits due to
      officers not employed by the grant for 183 of the required 720
      months of the award period.(award amount of $1,784,120
      divided by the 720 total months awarded [20 officers x 36
      months] less the 537 months that officers were employed =
      $2,478 X 183)

       TRGP Equipment Grant No. 1999-HE-WX-0028. At the time
of our audit, the DPS had received reimbursements totaling $465,990
of the $508,259 award amount. We selected 25 transactions valued at
$62,250 to determine whether the expenditures were allowable,
supported and in compliance with the terms and conditions of the
grant. Of this amount, we are questioning $25,143 for unsupported
expenditures. In addition, there was $396 in unallowable operational
assist costs that we are not questioning due to the minimal amount in
question. The details of these questioned transactions are shown in
Appendix III and IV.

       TRGP Equipment/Training Grant No. 2000-HE-WX-0042.
At the time of our audit, the DPS had received reimbursements
totaling $624,900 of the $659,861 award amount. We selected 25
transactions totaling $594,170 to determine whether the expenditures
were allowable, supported and in compliance with the terms and
conditions of the grant. Of this amount, we are questioning $301,789
for unsupported expenditures, which includes $290,525 for incomplete
property records identifying the vehicles that were purchased, and


                                  -9­
$11,264 for travel, clothing and equipment. Our review of the
property records disclosed that they did not show the source of the
funds for the purchase, the cost of the vehicle, or the date of the
purchase as required by the OJP Financial Guide, Part III, Chapter 6.
Consequently, we were unable to perform a physical inventory of the
vehicles as it was not possible to reconcile specific vehicles purchased
to a specific grant or to local funding. The details of these questioned
transactions are shown in Appendix III.

      TRGP Hiring Grant No. 2000-HH-WX-0020. At the time of
our audit, the DPS had received reimbursement totaling $462,353 of
the $596,302 grant award. Of this amount, we are questioning
$114,972 in unallowable salaries that exceeded the amounts approved
in the Financial Clearance Memorandum as shown in Appendix V. In
addition, there was $173 in unallowable fringe benefits (federal
unemployment tax) that we are not questioning due to the minimal
amount in question.

      COPS Mental Health and Community Safety Initiative
       Hiring Grant No. 2001-HM-WX-0008. At the time of our
audit, the DPS had received reimbursements totaling $122,652 of the
$202,492 award amount. Of this amount, we are questioning $8,090
in unallowable salaries that exceeded the amounts approved in the
Financial Clearance Memorandum. (See Appendix V) Of the
remaining award amount of $79,840 that is considered funds to better
use, $9,734 is the result of fringe benefits that were approved in the
Financial Clearance Memorandum but not charged to the grant, and
$70,106 is the result of unresolved retention issues.

       TRGP Equipment/Training Grant No. 2002-HE-WX-0049.
At the time of our audit, the DPS had received reimbursements
totaling $915,897 of the $949,047 award amount. We selected 25
transactions totaling $929,492 to determine whether the expenditures
were allowable, supported and in compliance with the terms and
conditions of the grant. Of this amount, we are questioning $88,654
for unsupported expenditures, and $389,065 for incomplete property
records identifying the vehicles that were purchased. Our review of
the property records disclosed that they did not show the source of the
funds for the purchase, i.e. Grant No., the cost of the vehicle, or the
date of the purchase as required by the OJP Financial Guide, Part III,
Chapter 6. Consequently, we were unable to perform a physical
inventory of the vehicles as it was not possible to reconcile specific
vehicles purchased to a specific grant or to local funding. The details
of these questioned transactions are shown in Appendix III.


                                 - 10­
       Tribal Court Grant No. 2003-HE-WX-0077. At the time of
our audit, the Tribal Court had received reimbursement totaling
$169,471 of the $200,000 award amount. We selected 25
transactions totaling $42,463 to determine whether the expenditures
were allowable, supported and in compliance with the terms and
conditions of the grant. Of this amount, we are questioning $16,048
for unsupported expenditures and $15,330 for unallowable
expenditures resulting from purchases that were not approved in the
financial clearance memorandum. Also, our review of the
Organizational Income Statement disclosed expenditures for three
account codes (4195, 5050, 5060), that related to services and items
not shown in the Budget Worksheet or approved in the Financial
Clearance Memorandum. Consequently, we question $24,453 for
these three account codes as unallowable costs. Our review of
personnel records disclosed $15,383 charged to the grant for positions
that were not authorized in the Budget Worksheet or Financial
Clearance Memorandum. The Organizational Income Statement
showed a total of $82,628 expended for salaries, but our review of
personnel records could only support $69,148 of the amount, resulting
in questioned unsupported costs $13,480 ($82,628 - $69,148). The
details of these questioned transactions are shown in Appendix III, IV,
and V.

     TRGP Rehiring Grant No. 2003-HR-WX-0002: At the time of
our audit, the DPS had received reimbursements totaling $539,826 of
the $1,060,740 award amount. Of this amount, we question $61,247
as follows:

   • 	 $13,287 for unallowable fringe benefits (State Unemployment
       Tax) that was charged to the grant but not authorized in the
       Financial Clearance Memorandum.

   • 	 $47,960 in unallowable salaries that exceeded the amount 

       approved in the Financial Clearance Memorandum. (See 

       Appendix V) 



Retention of Officer Positions

     The positions funded through COPS hiring grants are generally
awarded for 3 years. Grantees are expected to make reasonable,
"good faith" efforts during the grant period to retain the positions at



                                  - 11 ­
the conclusion of the grant. 9 At the conclusion of the grant period, the
COPS Office requires that the grantees retain the COPS-funded officer
positions for a minimum of one additional local budget cycle after the
budget cycle in which the COPS funding ends. 10 If COPS-funded
positions are not retained by the grantee at the conclusion of the
grant, the COPS program will have proven to be short-lived
phenomena instead of helping to launch a lasting change in community
policing.

       For hiring grants that have ended, we determine if the
COPS-funded officers were retained for at least one full budget cycle
following the conclusion of the grant. For hiring grants in progress,
our testing includes determining whether the grantee has engaged in
adequate retention planning, including the identification of a funding
source.

       Test for Retention for Expired Grants. DPS's TRGP Hiring
Grant No. 1999-HH-WX-0028 and Mental Health and Community
Safety Initiative Hiring Grant No. 2001-HM-WX-0008, expired July 31,
2005 and August 31, 2004, respectively. The DPS had been
reimbursed the full award amount of $1,784,120 for
Grant No. 1999-HH-WX-0028, and $122,652 of the $202,492 award
amount for Grant No. 2001-HM-WX-0008. Retention of the positions
formerly funded by the expired grants must be in addition to any
locally funded positions, as well as any grant positions that have not
yet expired. The retention plan, as shown in the grant applications,
for the two expired plans was for each manager involved in the
planning process to submit a specific retention plan strategy to senior
managers and Tribal officials who would then commit to its
implementation. Tribal officials were to evaluate the retention plan on
a periodic basis to ensure strong retention practices were in place.
The COPS Grant Monitoring Standards and Guidelines for Hiring and
Redeployment Manual states that retention plans must include the
9
   In our judgment, compliance with the retention planning condition of a hiring grant
is a dynamic, not static, concept and requires the grantee to demonstrate progress
during the 3-year grant period to secure the funding needed to retain the positions
when the grant expires. A grantee's stated expression of intent to retain positions
might be sufficient to show compliance at the beginning of the grant period. However,
such expressions alone, without evidence that the grantee has actually taken action to
implement its retention plan and secure funding, would not be sufficient to
demonstrate compliance at the end of the 3-year grant period.

°
1
   For example, if a grantee's fiscal year is January 1 through December 31 and the
grant expired August 1998, the grantee is expected to have retained the positions for
the remainder of its FY 1998 and through the end of its FY 1999.


                                       - 12­
proposed source of funding for the positions. However, as shown by
the above description of the retention plan, a source was not
referenced for the funding. DPS officials, the Director of which was
hired in February 2006, was not aware of the above retention plan or
any other activity to secure funding to achieve retention for the two
expired grants.

       The TRGP Hiring Grant awarded 20 positions, all of which were
to be retained for the required full budget cycle. However, the COPS
Office waived 15 of the 20 positions from the retention requirement
due to fiscal distress. We found that none of the remaining five grant
positions were retained. Additionally, we found that the two positions
awarded by the Mental Health Hiring Grant were not retained for the
required period. Consequently, we are questioning $446,030 (award
amount of $1,784,120 divided by 20 officers equals $89,206 times five
officers) for the five positions that were not retained for
Grant No. 1999-HH-WX-0028, and the full award amount of $202,492
for Grant No. 2001-HM-WX-0008, of which $79,840 is considered
funds to better use as these funds had not been drawn down at the
time of our audit.

       Test for Retention for Grants in Progress.

       TRGP Hiring Grant No. 2000-HH-WX-0020 and TRGP Hiring
Renewal Grant No. 2003-HR-WX-0002 were still in progress at the
time of our audit. We determined that the DPS did have a retention
plan for retaining the 7 positions awarded under the TRGP Hiring Grant
and the 15 positions under the TRGP Hiring Renewal Grant. Tribal
officials wrote a letter to the US Department of Interior in December
2005 requesting approval to use savings from the operation of the
Transitional Living Unit/Detention contract to fund the retention of
COPS-funded officers. As of June 9, 2006, the Tribe had not received
a reply. According to grant officials, without the funds no officer
positions will be retained.


Community Policing Activities 11

     The Crime Act authorizes grants to hire and train new, additional
career law enforcement officers for deployment into community

11
   This section only applies to the types of community policing activities performed.
Our discussion of the level of effort is discussed in the Budgeting, Hiring, and
Retention sections of the report, if applicable.


                                       - 13­
policing across the nation. According to COPS, community policing is a
philosophy that promotes and supports organizational strategies to
reduce the fear of crime through problem solving and
community police partnerships. While the need to involve the
community is universal to all community policing efforts, the program
should be tailored to fit the needs of the locality if it is to work
effectively. As a result, community policing efforts in jurisdictions
plagued with high rates of drug related violence may be quite different
from community policing efforts in jurisdictions with high rates of
traffic injuries from aggressive drivers. When COPS grant funding is
not used to enhance community policing, the community does not
benefit as was intended by the grant and the COPS Office does not
achieve a major program objective.

       An important tool to measure compliance against is the grant
application. In its application, the grantee is required to set forth a
detailed plan for implementing community policing "which reflects
consultation with appropriate community groups." As part of our
testing, we compare this plan with the activities actually engaged in by
the police department. The COPS Office must approve community
policing activities that are significantly different from those described
in the application. While the grantee is not required to carry out every
aspect of its plan, a significant departure from the plan without
obtaining approval from the COPS Office is an indicator of
non-compliance.

      The DPS stated in its TRGP Hiring, Equipment, and Tribal Court
grant applications that its community policing efforts included or would
include the involvement of community leaders, purchase of
management information system software and hardware to enable the
coordination of criminal justice information between the courts, law
enforcement and other pertinent agencies.

       To determine if these activities were being performed, we
 reviewed documentation, including progress reports, supporting the
above efforts. We were provided documentation to support
community involvement in community policing, as well as the reports
and forms that are capable of being generated from the management
information system. Also, the Tribal Court caseload had been
significantly decreased as a result of the added personnel and
computer equipment that was purchased with grant funds. In our
judgment, the DPS was meeting the objectives as outlined in their
grant applications.



                                 - 14­
Conclusion

      The DPS was not in compliance with two of the six areas
audited: reimbursement requests and retention of officer positions.
Specifically, we found:

       • 	 $453,474 paid for salaries and fringe benefits from a grant that
           did not have all officer positions filled for the required award
           period,

       • 	 $908,595 paid for unsupported and unallowable salaries and
           fringe benefits,

       • 	 $860,482 in expenditures and services that were not supported
           or approved in the Financial Clearance Memorandum,

       • 	 $16,332 paid for an officer position that was filled by a 

           non-COPS officer, 


       • 	 $560,592 is questioned resulting from the retention requirement
           not met,

       • 	 $9,734 in funds to better use resulting from funds that were
           approved in the Financial Clearance Memorandum but not
           charged to the grant,

       • 	 $70,106 in funds to better use until the retention issue is 

           remedied. 



Recommendations

          We recommend that the COPS Office:

1. 	      Remedy the $482,152 in unsupported salaries shown in
          Organizational Income Statements that could not be reconciled
          to Personnel/Payroll Add or Change Forms, and Request for
          Action Forms, for Grant No. 1999-HH-WX-0028.

2. 	      Remedy the $16,332 in unallowable salary paid to a non-COPS
          officer for Grant No. 1999-HH-WX-0028.




                                      - 15­
3. 	   Remedy the $453,474 in unallowable salaries and fringe benefits
       for the 183 of the 720 months that police officers were not
       employed by Grant No. 1999-HH-WX-0028.

4. 	   Remedy the $200,400 in unallowable fringe benefits (vacation,
       $120,000; worker's comp, $80,400)) that were approved in the
       Financial Clearance Memorandum but not charged to
       Grant No. 1999-HH-WX-0028.

5. 	   Remedy the $9,128 in unallowable fringe benefits (state
       unemployment tax) that were charged in excess of the Financial
       Clearance Memorandum for Grant No. 1999-HH-WX-0028.

6. 	   Remedy the $3,743 in unallowable fringe benefits (federal
       unemployment tax) that were charged but not approved in the
       Financial Clearance Memorandum for
       Grant No. 1999-HH-WX-0028.

7. 	   Remedy the $446,030 for failure to retain five positions for
       Grant No. 1999-HH-WX-0028.

8. 	   Remedy the $25,143 in unsupported training and equipment
       costs for Grant No. 1999-HE-WX-0028.

9. 	   Remedy the $11,264 in unsupported training and equipment
       costs for Grant No. 2000-HE-WX-0042.

10. 	 Remedy the $290,525 in unsupported vehicle costs resulting
      from incomplete inventory records for
      Grant No. 2000-HE-WX-0042.

11. 	 Ensure that property records are maintained in accordance with
      the OJP Financial Guide and include the source of the funding,
      the date of purchase, and the cost of the vehicle.

12. 	 Remedy the $114,972 in unallowable salaries paid in excess of
      the amount approved in the Financial Clearance Memorandum
      for Grant No. 2000-HH-WX-0020.

13. 	 Remedy the $8,090 for unallowable salaries paid in excess of the
      amount approved in the Financial Clearance Memorandum for
      Grant No. 2001-HM-WX-0008.




                                  - 16­
14. 	 Remedy the $114,562 in questioned costs for failure to retain
      the two officer positions for Grant No. 2001-HM-WX-0008.

15. 	 Remedy the $88,654 in unsupported training and equipment
      costs for Grant No. 2002-HE-WX-0049.

16. 	 Remedy the $389,065 in unsupported vehicle costs resulting
      from incomplete inventory records for
      Grant No. 2002-HE-WX-0049.

17. 	 Remedy the $16,048 in unsupported purchases for
      Grant No. 2003-HE-WX-0077.

18. 	 Remedy the $39,783 in unallowable costs (three unapproved
      Account Codes, $24,453; $15,330 other purchases) for
      items/services not approved in the Financial Clearance
      Memorandum for Grant No. 2003-HE-WX-0077.

19. 	 Remedy the $15,383 in unallowable salaries and fringe benefits
      for positions not approved in the Financial Clearance
      Memorandum for Grant No. 2003-HE-WX-0077.

20. 	 Remedy the $13,480 in unsupported salary and fringe benefits
      for Grant No. 2003-HE-WX-0077.

21. 	 Remedy the $13,287 in unallowable fringe benefits (state
      unemployment tax) not approved in the Financial Clearance
      Memorandum for Grant No. 2003-HR-WX-0002.

22. 	 Remedy the $47,960 in unallowable salaries in excess of the
      amount approved in the Financial Clearance Memorandum for
      Grant No. 2003-HRWX-0002.

23. 	 Remedy $9,734 in funds to better use for worker's comp funds
      that were approved in the Financial Clearance Memorandum but
      not charged to Grant No. 2001-HM-WX-0008.

24. 	 Remedy the $70,106 in funds to better use for failure to retain
      the two positions for Grant No. 2001-HM-WX-0008.




                                 - 17­
                                                            APPENDIX I

               OBJECTIVES, SCOPE AND METHODOLOGY


       The objectives of the audit are to determine whether the
grantee: (1) budgeted to maintain the number of locally funded
officer positions it had before receiving a COPS grant; (2) hired
additional police officers commensurate with the grant funds
reimbursed; (3) provided the necessary matching funds from allowable
sources not previously budgeted for law enforcement; (4) claimed
reimbursement for costs that are allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms
and conditions of the grants; (5) plans to or has retained grant-funded
positions; and (6) performed the types of community policing activities
contained in the grant applications.

       We conducted our audit in accordance with Government Auditing
Standards and included such tests as were considered necessary to
accomplish our objectives. Our audit concentrated on, but was not
limited to, the inception of the grants through January 31, 2006. The
grants audited were: TRGP Hiring Grant Nos. 1999-HH-WX-0028 and
2000-HH-WX-0020; TRGP Hiring Renewal
Grant No. 2003-HR-WX-0002; Mental Health and Community Safety
Initiative Grant No. 2001-HM-WX-0008; TRGP Equipment/Training
Grant Nos. 1999-HE-WX-0028, 2000-HE-WX-0042, and
2002-HE-WX-0049; and Tribal Court Grant No. 2003-HE-WX-0077.

      In conducting our audit, we performed testing in each of the
following areas:

       Test for budgeting of officers. To determine whether the
grantees budgeted to maintain the required number of locally-funded
officer positions, we examined the grantee's annual local budgets
beginning with the year prior to the first COPS grant.

      Test for hiring of officers. In order to test whether the
grantees hired the required number of additional officers, we
developed a model of the grantee's hiring practices. The hiring
analysis compares, on a monthly basis starting with the first month
the grantee received reimbursement from the COPS Office, the total
number of officers the grantee is supposed to maintain (target) with
the actual number of officers they are maintaining (actual). The
"actual officer" line represents all officers on-board regardless of how


                                  - 18­
they are funded. The methodology for developing the target differs
depending on whether the grantee budgets by FTE positions (or we
can otherwise determine FTE positions included in official budget
related documentation.

      • 	 If the grantee budgets by FTE position, the 'target officer level"
          represents the baseline of locally-funded officers, 12 plus any
          locally budgeted officer increases during the grant period, plus
          COPS positions the grantee has hired, plus any other grant-hired
          positions. Because it can be difficult to maintain full staffing, we
          provide the grantee with an allowance for vacancies and adjust
          the target level in the graph accordingly. The "target officer
          level" represents a band from full staffing (top of the band) to
          full staffing less a vacancy allowance (bottom of band). If the
          grantee can substantiate a historical vacancy rate greater than
          five percent, we adjust the target level to that rate. Otherwise,
          we provide the grantee with a standard five percent allowance
          for vacancies. 13

      • 	 If the grantee does not budget by FTE position, the target level
          includes the grantee's baseline number of actual officers and all
          COPS grant (and other grant) officers that were hired. Because
          the grantee's baseline number is for actual officers only, it
          already includes an allowance for any vacancies that existed at
          the time and we do not provide the grantee with an additional
          vacancy allowance.

      In either case, 14 when we identify a gap between the target and
actual officers on-board, we follow-up with the grantee to determine
why the gap exists and conclude as to whether, in our judgment,
supplanting has occurred.


12
     The baseline date for hiring grants is the date of the earliest grant.

13
     For example, if during a particular month, the grantee was required to have 100
officers at full staffing (90 baseline, 2 additional tribal-funded that were budgeted for
prior to getting a COPS grant, and 8 COPS-funded) and the grantee could not provide
its historical vacancy rate, we would provide them with our standard five percent
vacancy allowance. We would then plot the expected number of officers to be on­
board that month as a range with 100 officers as the upper band of the target and 95
offices as the lower band of the target.
14
   The DPS could not provide us with documentation to support a historical vacancy
rate; therefore, we used our standard five percent allowance for vacancies.


                                            - 19­
      Test for source of local matching funds. To determine
whether the source of the matching funds was from local monies not
previously budgeted for law enforcement.

      Test of reimbursement requests. To determine whether
requests for reimbursement contained only allowable and supportable
costs. Specifically, our testing included verifying that each: (1) officer
was not already employed as a police officer by the grantee before the
grant start date, (2) officer's pay was supported by payroll journals
and time and attendance records, (3) officer was paid the entry level
salary, and (4) that each officer was paid fringe benefits that were
previously approved by the COPS Office. Additionally, we reviewed
equipment and training costs to determine if the costs were supported
by: (1) the grantee's accounting records, and (2) invoices and/or
receipts. Test for retention of officer positions. To determine if the
grantee was planning for the retention of the grant-funded positions,
we reviewed the grant applications, annual progress reports, local
budgets memoranda, or other documentation that demonstrates
planning for retention of positions.

      To determine if the grantee retained the grant-funded positions
upon the expiration of the grants, we reviewed local budgets to
determine if the positions were absorbed into the local budget. We
also use the hiring model described in the test for hiring of officers to
determine if the grantee was maintaining the additional officers
beyond the expiration of the grant.

       Test of community policing activities. To test whether the
grantee performed the activities stated in its grant applications, we
reviewed documentation in support of the stated activities and
interviewed police department officials.

      Test of internal controls. We did not test internal controls for
the Assiniboine and Sioux Tribes as a whole or specifically for the grant
programs administered by the DPS. The DPS, a unit of the Assiniboine
and Sioux Tribes government, was included in a government-wide
audit conducted by an independent Certified Public Accountant. The
results of this audit were reported in the Independent Auditors' Report
on Compliance with Requirements Applicable to Each Major Program
and Internal Control for the fiscal year ended September 30, 2004.
The Report was prepared under the provisions of the Office of
Management and Budget Circular A-133. We reviewed the
independent auditor's assessment to identify significant noncompliance
issues related to the grantee or federal programs. We relied upon the


                                  - 20­
independent auditor's assessment, which disclosed no material
weaknesses. In addition, we performed limited testing of source
documents to assess the accuracy of reimbursement requests.
However, we did not test the reliability of the financial management
system as a whole.


DOl Oversight of the COPS Program

      Federal grant management entails both program management
and financial management. For the COPS program, management
responsibility rests with the COPS Office and OJP. During the course
of the program the responsibilities of the COPS Office and OJP have
changed.

      Major responsibilities of the COPS Office are to: (1) develop and
announce grant programs, (2) review grant applications to decide
which applicants will receive grant awards, and (3) monitor
programmatic issues relating to grants. To assist in performing its
responsibilities, the COPS Office requires grant recipients to submit
periodic grant progress reports for review by the COPS Office.

      Effective March 1, 2000, the COPS Office assumed responsibility
for several additional duties previously performed by OJP. These
responsibilities are: conducting pre-award reviews of grant application
budgets, ensuring grantee compliance with submission of accurate and
timely Financial Status Reports, providing financial management
technical assistance, and managing the audit resolution and closure
process. OJP is responsible for disbursing federal funds to grantees.

      For additional information about the COPS Office (including grant
programs), OJP, or the Office of the Inspector General, see the
U.S. Department of Justice Website (WWW.USDOJ.GOV).




                                - 21 ­
                                                     APPENDIX II 




           SCHEDULE OF DOLLAR-RELATED FINDINGS 


QUESTIONED COSTS:                                AMOUNT          PAGE

Grant No. 1999-HH-WX-0028

 Unsupported salaries                            $     482,152       8

 Unallowable salary paid to an individual that
                                                        16,332       8
 was not an officer

 Unallowable salaries and fringe benefits
 charged to the grant when a total of 183
                                                       453,474       9
 months of the award period did not have
 officers employed

 Unallowable fringe benefits (vacation,
 worker's comp) that were approved in the
                                                       200,400       9
 Financial Clearance Memorandum but not
 charged to the grant

 Unallowable fringe benefit (state
 unemployment tax) that was charged to the
                                                         9,128       9
 grant in excess of the amount approved in
 the Financial Clearance Memorandum

 Unallowable fringe benefit (federal
 unemployment tax) that was charged to the
                                                         3,743       9
 grant but not approved in the Financial
 Clearance Memorandum

 Failure to retain 5 grant-funded positions            446,030       13

Questioned Costs for 1999-HH-WX-0028             $1,611,259




                                - 22­
Grant No. 1999-HE-WX-0028

      Unsupported training and equipment costs               $     25,143        9

Questioned Costs for 1999-HE-WX-0028                         $    25,143

Grant No. 2000-HE-WX-0042

     Unsupported training and equipment costs                $     11,264        9

     Unsupported vehicle costs resulting from                     290,525
                                                                                 9
     incomplete inventory records

Questioned Costs for 2000-HE-WX-0042                         $ 301,789
Grant No. 2000-HH-WX-0020

     Unallowable salaries paid in excess of the
     amount approved in the Financial Clearance              $    114,972        10
     Memorandum

Questioned Costs for 2000-HH-WX-0020                         $ 114,972
Grant No. 2001-HM-WX-0008

     Unallowable salaries paid in excess of the
     amount approved in the Financial Clearance              $      8,090        10
     Memorandum

     Failure to retain both grant-funded positions                202,492        10

Less: Questioned costs in excess of
      reimbursements received 15                                 (87,930)
     ($210,582 ­ $122,652)

Questioned Costs for 2001-HM-WX-0008                         $ 122,652




15
   We reduced our questioned costs for Grant No. 2001-HM-WX-0008 because total
reimbursements received were $122,652 at the time of our audit.


                                    - 23­
Grant No. 2002-HE-WX-0049

 Unsupported training and equipment costs     $        88,654   10

 Unsupported vehicle costs resulting from                       10
                                                      389,065
 incomplete inventory records

Questioned Costs for 2002-HE-WX-0049          $ 477,719
Grant No. 2003-HE-WX-0077

 Unsupported purchases                        $        16,048   10

 Unallowable costs (includes the Account
 Codes 4195,5050,5060) resulting from
                                                       39,783   10,11
 expenditures not approved in the
 Financial Clearance Memorandum

 Unallowable salaries and fringe benefits
 charged to the grant for positions not
                                                       15,383    11
 approved in the Financial Clearance
 Memorandum

 Unsupported salary and fringe benefits                13,480    11

Questioned Costs for 2003-HE-WX-0077              $   84,694

Grant No. 2003-HR-WX-0002

 Unallowable fringe benefit (state
 unemployment tax) that was charged to
                                                  $    13,287    11
 the grant but not approved in the
 Financial Clearance Memorandum.

 Unallowable salaries paid in excess of the
 amount approved in the Financial                     47,960     11
 Clearance Memorandum

Questioned Costs for 2003-HR-WX-0002          $       61,247

TOTAL QUESTIONED COSTS                        $2,799,475




                                - 24­
FUNDS TO BETTER USE: 


Grant No. 2001-HM-WX-0008
  Withhold fringe benefit (worker's camp)
  funds that were approved in the Financial
                                                        $     9,734    10
  Clearance Memorandum but not charged
  to the grant
  Withhold remaining funds until retention
                                                             70,106    10
  issues are remedied ($79,840- $9,734)
Funds to Better Use for Grant No.
                                                       $     79,840
2001-HM-WX-0008
TOTAL FUNDS TO BETTER USE                                  $ 79,840




Questioned Costs are expenditures that do not comply with legal,
regulatory or contractual requirements, or are not supported by
adequate documentation at the time of the audit, or are unnecessary
or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting
documentation.

Funds to Better Use are funds that could be used more efficiently if
management took actions to implement and complete audit
recommendations.


                                - 25­
                                                            APPENDIX Ill


                         UNSUPPORTED EXPENDITURES 


                                          Questioned               Check
   Description             Award                         Date               Note
                                             Cost                    No.
In-state travel       1999-HE-WX-0028      $      600   09/08/00   180662   (1)
Out-of-state travel           \\
                                           $      255   09/07/00   180577   (1)
Training fees                 \\
                                           $      764   09/08/00   180655   (1)
Training fees                 \\
                                           $    1,049   09/08/00   180657   (1)
Training fees                 \\
                                           $    1,049   09/08/00   180659   (1)
Training fees                 \\
                                           $    4,700   04/06/01   191113   (1)
Training fees                 \\
                                           $    7,600   08/24/01   204036   (1)
Expert assistance             \\
                                           $    7,926   10/17/01   206683   (1)
                              \\
Training fees                              $    1/200   09/03/03   242881   (1)
       TOTAL                               $   25,143
Capitalized                                             04/30/02            (1)
                      2000-HE-WX-0042      $    7,660              216956
equipment
                              \\
Clothing                                   $   2,755    08/13/02   222674   (1)
Out-of-state travel           \\
                                           $     849    07/12/01   202148   (1)
Vehicles                      \\
                                           $ 290,525    01/25/01   187364   (2)
       TOTAL                               $ 301,789
Capitalized                                             12/18/02            (1)
                      2002-HE-WX-0049      $   26,665              229870
equipment
                              \\
Clothing                                   $    3,447   09/19/03   243733   (1)
                              \\
Clothing                                   $   22,481   10/14/03   245080   _(1)
Non-capitalized               \\                        12/16/02            (1)
                                           $    6,790              229590
equip
Non-capitalized               \\                        12/18/02            (1)
                                           $   29,271              229870
equip
                             \\
Vehicles                                   $ 389,065    12/16/02   229659   (2)
       TOTAL                               $477,719
Out of state travel   2003- HE-WX -0077    $   1,190    01/11/05   268802   _(3)
Books and                    \\                         04/15/05            (1)
                                           $      210              273776
periodicals
Operational assist           \\                         09/27/05            (1)
                                           $    2,250              281989
costs
Non-capitalized              \\                         04/22/04            (1)
                                           $    3,691              255297
equip
Non-capitalized              \\                         06/01/04            (1)
                                           $    6,140              257379
equip



                                      - 26­
Non-capitalized                                                                  06/01/04            (1)
                                        \\
                                                             $       1,643                  257357
equip
                                        \\
In-state travel                                             _t    924            04/22/04   255308   (1)
      TOTAL                                                  $ 16,048
  GRAND TOTAL                                                $820,699
      {1) Supporting documents not provided.
      (2) Inventory records were not complete to allow physical inventory of vehicles.
      (3) No certificate to show that training was attended/completed.




                                                      - 27­
                                                                               APPENDIX IV 



                                UNALLOWABLE EXPENDITURES 


                                                       Questioned                    Check
   Description                     Award                                   Date               Note
                                                          Cost                        No.
Expert Assistance             2003-HE-WX­                             06/02/05                 (1)
                                  0077                        $ 1,360                276375
Expert Assistance                      "                      $ 1,239 06/03/05       276415    (1)
Expert Assistance                      "                      $   3,000   03/29/05   272671    (1)
Operational assist                                                        02/02/05             (1)
costs
                                       "                      $    499               269932
Non-capitalized                                                       03/03/04                 (1)
equip
                                       "                      $ 5,569                252682
Non-capitalized                                                           07/07/04             (1)
equip
                                       "                      $    220               259277
Expert Assistance                      "                      $ 3,443 03/16/04       253269    (1)
      TOTAL                                                   $15,330
       (1) Not mcluded m the Budget Worksheet for approval.




                                                    - 28­
                                                      APPENDIXV

               UNALLOWABLE PERSONNEL SALARIES
               HIRING GRANT NO. 2000-HH-WX-0020

                            No.
Employee   Period Worked   Months     Approved     Actual     Amount
   #            (1)        Worked       Pay (3)     Pay (1)   Overpaid
                             (2)
            10/11/04­
   1                        15.75       $26,424    $37,926    $   11,502
             01/31/06
            08/22/01 -
   2                        16.50       $27,773    $28,676    $     903
             12/31/02
            05/10/01­
   3                        20.00       $34,070    $34,973    $     903
             12/31/02
            10/06/04­
   4                        9.00        $14,644    $21,672    $    7,028
             06/30/05
            05/21/01­
   5                        19.50       $33,170    $34,073    $     903
             12/31/02
            08/15/03­
   7                        3.25         $5,288      $6,825   $    1,537
             11/21/03
            11/10/03 ­
   10                       22.25       $33,620    $53,578    $   19,958
             09/16}05
            08/15/03­
   11                       29.75       $53,510    $71,099    $   17,589
             01/31/06
            12/29/03­
   12                       15.50       $25,974    $37,324    $   11,350
             04/11/05
            08/12/03­
   13                       16.75       $28,223    $39,795    $   11,572
             01/01/05
            04/02/04­
   14                       5.50         $8,949    $13,244    $    4,295
             09/13/04
            08/19/03­
   15                       12.75       $21,026    $30,240    $    9,214
             09/03/04
            08/12/03­
   16                       12.50       $20,577    $29,561    $    8,984
             08/26/04
            10/04/04­
   17                       5.00         $8,136    $12,040    $    3,904
             03/03/05
  18 .      01/01/05­
                            13.00       $21,476    $31,304    $    9,828
             01/31/06
              TOTAL                   $362,860    $482,330    $119,470




                              - 29­
                      UNALLOWABLE PERSONNEL SALARIES 

                      HIRING GRANT NO. 2001-HM-WX-0008 


                                            No.
Employee       Period Worked               Months         Approved             Actual          Amount
   #                     (1)
                                           Worked           Pay (3)             Pay (1)        Overpaid
                                               (2)
                   08/09/02­
   1                                          14.00           $29,432           $31,066           $ 1,634
                    10/02/03
                   03/11/02­
   2                                          24.25           $52,602           $54,216           $ 1,614
                    03/18/04
                   10/01/03­
   3                                          3.50              $7,224          $12,066           $ 4,842
                    01/11/04
                     TOTAL                                   $89,258          $97,348            $ 8,090
   (1) 	 Per personnel records.
   (2) 	 Full month (172 hours). 1-7 days =.25; 8-14 days =.50; 15-21 days= .75; 22+ days= 1.00 month.
        Full year = 2080 hours.
   (3) 	Per Budget Worksheet and Financial Clearance Memorandum. May include more than one hourly
           rate. Amount determined by multiplying hourly rate by number of months worked.




                      UNALLOWABLE PERSONNEL SALARIES 

                      HIRING GRANT NO. 2003-HR-WX-0002 


                                     No.
  Empl.         Period              Months           Approved           Actual           Amount
   #           Worked (1)           Worked             Pay (3)           Pay (1)         Overpaid
                                        (2)
               10/01/03­
       1                              28.00            $60,320            $67,872          $    7,552
                01/31/06
               11/28/03­
       2                              15.50            $38,150            $45,322          $    7,172
                03/08/05
               10/01/03­
       3                              28.00            $60,320            $67,872          $    7,552
                01/31/06
               10/01/03­
       4                              28.00            $60,320            $67,872          $    7,552
                01/31/06
               10/01/03­
    10                                28.00            $60,320            $67,872          $    7,522
                01/31/06
               10/01/03­
                08/05/05              22.25
    12                                                 $60,320            $65,240          $    4,920
               09/16/05­              4.75
                01/31/06
               10/01/03­
    18                                27.00            $60,320            $65,980          $    5,660
                12/27/05
                  TOTAL                              $400,070          $448,030            $47,960


                                                 - 30­
              PERSONNEL SALARIES: TRIBAL COURT GRANT 

                       NO. 2003-HE-WX-0077 


                                      No.                                                 Amt Paid
Empl.          Period                Months           Approved            Actual            for
 #            Worked (1)             Worked             Pay (3)            Pay (1)        Unappr.
                                          (2)                                             Positions
              01/23/04­
  1                                     6.75              $11,610          $11,610               $0.00
               07/08/04
              05/24/04­
  2                                     3.00               $6,192             4,386              $0.00
               08/19/04
              10/30/03­
  3                                    12.00              $18,720          $18,720               $0.00
               10/29/04
              01/26/04­
 4                                      9.25              $14,319          $14,319               $0.00
               09/30/04
              06/27/05­
  5                                     2.75                 $0.00          $2,956             $2,956
               09/15/05
              05/28/04­
 6                                      4.25                 $0.00          $5,117             $5,117
               09/30/04
              07/14/04­
 7                                      2.75               $4,730           $4,730               $0.00
               09/30/04
              01/23/.04­
               02/19/04                 1.00                 $0.00          $1,290             $1,290
 8
              05/28/04­                 5.00                 $0.00          $6,020             $6,020
               10/24/04
                 TOTAL                                   $55,571         $69,148            $15,383
(1) Per personnel records.
(2) 	 Full month (172 hours). 1-7 days =.25; 8-14 days =.50; 15-21 days =.75; 22+ days = 1.00 month.
       Full year = 2080 hours.
(3) 	 Per Budget Worksheet and Financial Clearance Memorandum. May include more than one hourly
       rate. Amount determined by multiplying hourly rate by number of months worked.




                                                - 31 ­
                                                                                   APPENDIX VI 



·FORT PECK ASSINIBOINE & SIOUX TRIBES 

                           Department Of Law And Justice 

                           Office Of Public Safety Director 


  David M. Sheeren, Regional Audit Manager
  U.S. Department ofJustice
  Office of Inspector General
  Denver Regional Audit Office
  1120 Lincoln, Suite 1500
  Denver, C'..olorado 80203


  Dear Shcercn:

  Thank you for the opportunity to respond to the findings in the audit draft. It couldn't
  have come at a better time. I have been tasked to supervise the Fort Peck Department of
  Law and Justice which consist ofone hundred employees whom are funded under the
  BIA Law Enforc:cmcnt contract, a combined Adult and Juvenile Corrections contract,
  Poplar School's contract, a BIA Highway Safety grant, Family Violence grants, and
  COPS grant. Each entity has its own way of reporting and recording their allocations and
  coste;.

  Your audit has provided an overall understanding of what is needed to improve a viable
  program and your recommendations are weJJ taken and also provide a set standard.

  You will find that I began listing each recommendation separately and then realized that
  our convoluted recording process and our muddled filing system was keeping me from
  answering each recommendation appropriately. I recognized this discovery to be the
  answer to most of the recommendations. With this in mind and 1 answered the remaining
  recommendations in paragr.lpb fonn and wilJ continue to organize the requested data

  I have attached my response along with a letter, which you may have already received
  from Controller, Fred Reed.

  Please refer to me as the point ofcontact. I fully appreciate your assistance and thank you
  for your time.

  Sincerely,




  Lester Dale DeCoteau
  Public Safety Director




 Poplar,   Montana 59255                 P.O. Box 1027                          (406) 768·3406
                                                                            FAX (406) 768-3440



                                           - 32­
1     Remedy the $482,152 In unsupported salaries shown in
Organizational Income Statements that could not be reconciled
to Personnel/Payroll Add or Change Forms, and Request for
Action Forms, for Grant No. 1999-HH-WX-0028

I concur that the salaries did not match the required amount of
employees for the following reason. The Personnel/Payroll Add or
Change Forms (ADD/CHANGE form) do not properly depict the hiring
process and will skew any tally. The Fort Peck Tribal personnel office
is responsible for keeping records on the Fort Peck Department of
Law and Justice Police department but they can't report what they
don't have. The Fort Peck Department of Law and Justice also keep
records to comply with the PL-638 BIA Contract and the lack of
communication between the Personnel Office and the Fort Peck
Department of Law and Justice hinders good record keeping. To
remedy this, collecting the information from several locations where
files are concealed and centralizing will help. For example, the
officer's schedule, payroll submission forms and tribal resolutions for
hire can be compiled -together for easy access. An example of why
the Personnel/payroll statements are not accurate is due to
"temporary hires" that have not been thoroughly processed and
PersonneVPayroll Add or Change forms were not filled out. The
Chairman of the Fort Peck Tribes makes temporary appointments for
30 days at the recommendation of the Fort Peck Department of Law
and Justice, which sometimes continues on without completing a
Personnel/Payroll Add or Change form. This process allows a person
to be hired on a COPs program and if this person was dismissed for
one reason or another without processing an ADD/CHANGE form,
personnel will never know this person was employed. This is only
one example and it may also explain how a person can be working
without being a swom officer.




                                - 33­
2    Remedy the $16,332 In unallowable salary paid to a non-
     COPS officer for Grant No. 1999-HH-WX-0028

With out knowing all the circumstances, I don't know how the
previous Director employed an individual for $16,332 as filed by the
auditor, but I do know that it is possible to hire some one with out
completing all the hiring procedures. The hiring procedures are
convoluted and are Infected with a high tum over rate that inhibits
proper hiring procedures. This in turn also affects the community
policing because with out more qualified officers; the current officers
cannot address community policing and are backed up with calls and
investigations. Other responsibilities are added from the courts such
as civil standbys. arrest warrants for missing court and tribal court
process service.              ·
The Fort Peck Department of Law and Justice Indian pollee are the
primary law enforcement who respond to and investigate State, City,
County, Federal and Tribal crimes with Tribal Court Process Serving
taking the back seat. Process service is a problem for most Indian
reservations and the Fort Peck Assiniboine and Sioux tribal court
serves over 10,000 Individuals a year. which equates to about one
paper served every 12 minutes in a 2,010 work hour year.
When new employees are hired, they are not allowed to do any police
duties, according to the Bureau of Indian Affairs (BIA) manual and the
federal register. The new persons were usually employed as a
process server until they could be properly trained and were never
sworn officers, which may explain the payment to the non-COPS
officer. The title "non-COPS officer" may not be correct, because he
was hired under the COPS program and the same proper procedures
applied ~o him at the time. He wasn't academy trained so he couldn't
perform police duties and served papers like any other person. To
stop any further inquiries and allegations of misuse of funds,
remedies have been put into place and now all potential potice
officers are prescreened and assigned to one supervisor until they
complete proper training and documentations. They do not do any
police functions nor do court process. To address process serving,
other non-enforcement personnel were specifically hired to serve




                                - 34­
court papers through the BIA contract, which will comply with COPS
grant and the BIA contract.


3    $453,4741n unallowable salaries and fringe benefits for the
     183 of the 720 months that pollee officers were not
     employed by Grant No. 1999-HH-WX-6028.

4	   Remedy the $200,400 In unallowable fringe benefits
     (vacation, $120,000; worker's comp, $80,400)) that were
     approved In the Financial Clearance Memorandum but not
     charged to the Grant No. 1999-HH-WX-0028.
5	   Remedy the $9,128 in unallowable fringe benefits (state
     unemployment tax) that were charged In excess of the
     Financial Clearance Memorandum but not charged to the
     Grant No.1999-HH-WX.0028

6	   Remedy the $3,743 In unallowable fringe benefits (federal
     unemployment tax) that were charged but no approved In
     the Financial Clearance Memorandum but not charged to
     the Grant No. 1999-HH-WX-0028

I concur with the 3-6 recommendations, because I presented the
director at the time with concerns for the officers. I asked what type of
insurance covers the police officers. Most officers are Indian and can
seek assistance through Indian Health Service but that does not pay
them when they can't work.        I also asked about the non-Indians
employed who didn't receive medical assistance, but also fall under
the same possibility of getting injured at work. The Director at this
time was trying to identify what category we all fall under, since we
are contracting trust responsibilities from the United States
Government. It was asked if we could receive the same benefits as a
government employee or not. We found the latter, so to be on the
safe side, some benefits were listed and paid until we could come to
a conclusion of what we were entitled to. To remedy this, we found
were covered by workman compensation, a tribal medical program if
we were injure on the job and were under the government's wing for




                                  - 35­
tort claims. Another alternative is pay disallowed benefits under the
638 contract.

7    Remedy the $446,030 for failure to retain five positions for
     Grant No. 1999-HH-WX.0028.
8           Remedy the $25,143 In unsupported training and
     equipment costs for Grant No. 199-HH-WX.0028.

I don't agree or disagree with 7 & 8, but I favor not concurring with
both, simply because I have found relevant documentation lying
around and it needs to be complied for an accurate remedy. The Fort ·
Peck Department of Law and Justice had at one time three to four
law enforcement assistance personnel, who divided up the work and
kept their own records. The Fort Peck Assinlboine and Sioux Tribal
Administration also have their record keeping process and sometime
appear to be a whole different company.
In my inquiry of the departments' process and record keeping of the
COPS grants on the Fort Peck Department of Law and Justice Police,
I confirmed that the tribal department numbers do not Jist the grant
they are representing and they do not necessarily carry the same
identifier year after year. For example, when COPS grants are
awarded to the tribes, they are assigned a tribal department number
that tracks all transactions in there system. For instance Grant No.
2000HHWX0020 and Grant No. 2000HEWX0042 were both listed
under the tribal department No. 4361 and later, Grant No.
2000HHWX0020, the hiring grant was listed under Tribal department
number 4359. It may have been because the equipment grant
depleted, or the hiring grant was considered a new budget every year
it was carried over or it may also Include the extension. Either
scenario will cause some confusion with anyone handling the fixed
annual BIA Contract and all the COPS grants.


As I mentioned ear1ier, law enforcement assistants responsible for the
record keeping will sometimes start their own filing system to address
the two separate identifiers by placing all the tribal department
financials together and keeping only the originating documents of the




                                - 36­
 COPS grants together, which was limited to award date, amount of
 award and list of equipment requisitions. So when I found the grant
folders, most of the files had no flnancials, no purchase orders, no
vouchers, no copies of the checks issued to vendors, and no receipt
of property to compile an exact inventory. The necessary information
does exist, because I am finding relevant information on or in
separate files and on shelves in different locations, such as financials
and partial vouchers. Until I get someone hired, (we are currently
operating with minimal personnel and our office help has resigned) I
concur with the following recommendations listed from 9-24 and will
remedy them with accurate, viable record keeping and leave concise
instructions on how to identify and properly file all transactions in
accordance with the COPs policies. This will Include vehicles and all
property, which has currently been assigned to police officers who
volunteered to take on the responsibilities. I will also revisit the
benefits with our Controller, Fred Reed.




                                 - 37­
                                                                                                 APPENDIX VII 





                                                        U.S. Department of Justice
                                                        Office o[Commu11ity Oriented Policing Services (COPt:.)
 Aud1J Ll{luron b1v1SiM 

 //()() v.mrwm .iwnue. .\·, w. 

 Washingu;n. liC 21J5J(J 

 (lOll Jf4. 7f112 

 (!02) 616-116JII (fax 





                                                  MEMORANDUM


 Via E-mail and U.S. Mail
 To: 	         David M. Shecrcn 

               Regional Audit Manager 

               Office of the Inspector General 

               ~onai?AditOtli
 Fron..t~·--: : :~ .      7
                                ~?· · ·.· ~~
   / > -·.
                           John
                           Management Anal                  v./'
 Date: 	                   September 13,2006

 Subject: 	                Response to the Draft Audit Report for the Fort Peck Assiniboine and Sioux 

                           Tribes. Department of Public Safety, Poplar, Montana 


       This memorandwn is in response to your August 14, 2006 draft audit report for the Fort
Peck Assiniboine and Sioux Tribes, Department of Public Safety, Poplar, Montana. For ease of
review, each audit recommendation is stated in bold and underlined, followed by COPS'
response to the recommendations.

Recommendation 1- Remedy the 5482,152 in unsupported salaries shown in 

Organizational Income Statements that could not be reconciled to Personncl!PIIyroll Add 

or Change Forms, and Reguest for Action Forms, for Grant 

No. 1999-HH-WX-0028. 


      COPS agrees that grantees should be able to reconcile all accounting and supporting 

documents so that they can account for all federal, state and local funds. 


 Discussion and Planned Actions

         After review of your report and the DPS reply, COPS ha:; determined that additional
  information and clarification is needed before COPS can make a final decision on how to
  proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
. information from the DPS before COPS determines the best way to resolve this recommendation.
  Once a final decision is made on how we plan to remedy this recommendation COPS will
  provide your office with our plan.




                                                        - 38­
David M. Sheeren, Regional Audit Manager, OIG
September 13, 2006
Page2



Request

      Based oh the discussion and planned actions, COPS requests resolution of
recommendation 1.

Recommendation 2 -Remedy the $16.332 in unallowable salarv paid to a non-COPS officer
for Grant No. 1999-HH-WX-0028.

      COPS agrees that federal funds under the COPS program arc not to be used to pay for
non-COPS officers.

DiscuSllion and Planned Actions

       After review of your report and the DPS reply, COPS has determined that additional
information and clarification is needed before COPS can make a final decision on how to
proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
information from the DPS before COPS determines the best way to resolve this recommendation.
Once a final decision is made on how we plan to remedy this recommendation COPS will
provide your office with our plan.

Request

      Based on the discussion and planned actions. COPS requests resolution of
recommendation 2.

Recommendation 3 - Remedy the $453,474 in unallowable salaries and fringe benefits for
the 183 ofthe 720 months that police officers were not employed by
Grant No. 1999-HH-WX-0028.

        COPS agrees that grantees can only claim and be reimbursed tor the actual salaries and
benefits incurred for the time the officers are actually employed on the COPS grant.

Discussion and Planned Adions

       After review of your report and the DPS reply. COPS has determined that additional
information and clarification is needed before COPS can make a final decision on how to
proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
information from the DPS before COPS determines the best way to resolve this recommendation.
Once a final decision is made on how we plan to remedy this recommendation COPS will
provide your office with our plan.




                                           - 39­
David M. Sheeren, Regional Audit Manager. OIG
September 13,2006                 ·
Page 3



Request

      Based on the discussion and planned actions. COPS requests resolution of
recommendation 3.

Recommendation 4 • Remedy the $200.400 in unallowable fringe benefits (vacation,
$120.000; worker's eomp, $80,400)) that were approved in the Financial Clearance
Memorandum but not charged to Grant No.1999·HH-WX-0028.

and

Recommendation 23 • Remedy $9,734 in funds to better use for worker's c:omp funds that
were approved in the Financial Clearance Memorandum but not charged to Grant
No. 2001-HM-WX-0008.

       COPS agrees that grantees can only charge approved items to the grants awarded and that
only actual allowable costs that will be paid should be included in the approved Financial
Clearance Memorandum issued by COPS.

Discussion and Planned Actions

       After review of your report and the DPS reply, COPS has determined that additional
information and clarification is needed before COPS can make a final decision on how to
proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
information from the DPS before COPS determines the best way to resolve this recommendation.
Once a final decision is made on how we plan to remedy this recommendation COPS will
provide your office with our plan.

Request

      Based on the discussion and planned aclions, COPS requests resolution of
recommendations 4 and 23.

Recommendation 5- Remedy the $9,128 in unallowable fringe benefits (state
unemployment tax) that were charged in ~xcess of the Financial Clearance Memorandum
for Grant No. 1999-HH-WX-0028.

and




                                            - 40­
David M. Sheeren, Regional Audit Manager, OIG
September 13,2006
Page4


Recommendation 6- Remedy the $3,743 in unallowable fringe benefits (federal
unemploymen! taxl that were charged but not approved in the Financial Clearance
Memorandum for Grant No.J999-HH-WX-0028.

and

Recommendation 12- Remedy the $114,972 in unallowable salaries paid in excess of the
amount approved in the Financial Clearance Memorandum for Grant
No. 2000-HH-WX..OOlO.

and

Recommendation 13 - Remedy the $8.090 for unallowable salaries paid in excess of the
amount approved in the Financial Clearance Memorandum for Grant
No. 2001-HM-WX-0008.

and

Recommendation 22 - Remedy the S47 ,960 in unallowable salaries in excess of the amount
approved in the Financial Clearance Memorandum for Grant No. 2003-HRWX-0002.

       COPS agrees that only approved allowable costs may be charged to the gr.mts by
grantees.

Discussion and Planned Actions

       After review of your report and the DPS reply, COPS has determined that additional
infomtation and clarification is needed before COPS can make a final decision on how to
proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
information from the DPS before COPS determines the best way to resolve this recommendation.
Once a final decision is made on how we plan to remedy this recommendation COPS wil1
provide your office with our plan.

Request

      Based on the discussion and planned actions. COPS requests resolution of
recommendations 5, 6, 12, 13, and 22.

Recommendation 7 - Remedy the $446.030 for failure to retain five positions for
Grant No. 1999-HH-WX-0028.




                                            - 41 ­
David M. Sheeren. Regional Audit Manager. OIG
September 13, 2006
Page 5


and

Recommendation 14- Remedy the $114,562 in questioned costs for failure to retain the two
officer positions for Grant No.2001-HM-WX-0008.

and

Recommendation 24- Remedy the $70.106 in funds to better use for failure to retain the
two po!itions for Grant No.2001-HM-WX-0008.

       COPS agrees that grantees need to retain otlicers hired under the hiring grant for the
required amount of time in order to be considered in compliance with grant terms.

Discussion and Planned Actions

       After review of your report and the DPS reply, COPS has determined that additional
information and clarification is needed before COPS can make a final decision on how to
proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
information from the DPS before COPS determines the best way to resolve this recommendation.
Once a tinal decision is made on how we plan to remedy this recommendation COPS will
provide your office with our plan.

Request

      Based on the discussion and planned actions, COPS requests resolution of
recommendations 7, 14, and 24.

Recommendation 8 - Remedy the $25.143 in un!lunoorted training and equipment costs for
Grant No.J999-HE-WX-0028.

and

Recommendation 9- Remedy the $11,264 in unsupported training and equipment l!osts for
Grant No.lOOO-HE-WX-0042.

and

Recommendation 15- Remedy the $88,654 in unsupported training and equipment costs
for Grant No. 2002-HE-WX-0049.

and




                                             - 42­
David M. Sheeren, Regional Audit Manager. OIG
September 13, 2006
Page 6



Recommendation 17- Remedy the $16,048 in unsupported purchases for Grant
No.lOOJ-HE-WX-0077.

and

Recommendation 20 - Remedy the $13,480 in unsunported salaa and fringe benefits for
Grant No. 2003-HE-WX-0077.

        COPS agrees that grantees must be able to support all approved and paid costs under the
grants awarded.

Discussion and Planned Adions

       After review of your report and the DPS reply, COPS has determined that additional
information and claritication is needed before COPS can make a final decision on how to
proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
information from the DPS before COPS determines the best way to resolve this recommendation.
Once a tina( decision is made on how we plan to remedy this recommendation COPS wiiJ
provide your office with our plan.

Request

      Based on the discussion and planned actions, COPS requests resolution of
recommendations 8, 9, 15, and 17.

Recommendation 10- Remedy the $290,525 in unsupported vehicle costs resulting from
incomplete inventory records for Grant No. 2000-HE-WX-0042.

and

Recommendation 16 - Remedy the $389.065 in unsupported vehicle costs resulting from
incomplete inventory records for Grant No. 2002-IIE-WX-0049.

       COPS agrees that grantees need to accurately track all inventory that has been purchased
with federal, state, and local funds.

Discussion and Planned Actions

       After review of your report and the DPS reply, COPS has determined that additional
information and clarification is needed before COPS can make a final decision on how to




                                            - 43­
David M. Sheeren, Regional Audit Manager, OIG
September 13. 2006
Page 7


proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
information from the DPS before COPS determines the best way to resolve this recommendation.
Once a final decision is made on how we plan to remedy this recommendation COPS will
provide your office with our plan.

Request

      Based on the discussion and planned actions, COPS requests resolution of
recommendations J0 and 16.

Recommendation 11 - Ensure that property records are maintained in accordance with the
OJP Financial Guide and include the source of the funding, the date of purchase. and the
cost of the vehicle.

        COPS agrees that grantees need to maintain accurate and complete inventory records, that
meet all guidelines, for all property that is acquired with grant funds.

Discussion and Planned Actions

       After review of your report and the DPS reply, COPS has determined that additional
information and clarification is needed before COPS can make a final decision on how to
proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
information from the DPS before COPS determines the best way to resolve this recommendation.
Once a final decision is made on how we plan to remedy this recommendation COPS will
provide your office wilh our plan.

Request

      Based on the discussion and planned actions, COPS requests resolution of
recommendation 11.

Recommendation 18- Remedy the $39,783 in unallowable costs (three unapproved Account
Codes, S24,4S3; $15.330 other purchases) for items/services not approved in the Financial
Clearance Memorandum for Grant No. 2003-HE-WX-0077.

and

Recommendation 19- Remedy the $15.383 in unallowable salaries and fringe benefits for
positions not approved in the Financial Clearance Memorandum for Grant
No. 1003-HE-WX-0077,




                                            - 44­
David M. Sheeren, Regional Audit Manager, OIG
September 13, 2006
PageS


and

Recommendation 21 -Remedy the $13.287 in unallowable fringe benefits (state
unemployment tax) not approved in the Financial Clearance Memorandum for Grant No.
2003-HR-WX-0002.

       COPS agrees that grantees can only charge approved items to the grants awarded and that
only actual allowable costs that will be paid should be included in the approved Financial
Clearance Memorandum issued by COPS.

Discussion and Planned Actions

       After review of your report and the DPS reply, COPS has determined that additional
information and clarification is needed before COPS can make a final decision on how to
proceed in resolving this issue. Therefore, COPS will work with the grantee to obtain additional
information from the DPS before COPS determines the best way to resol.ve this recommendation.
Once a final decision is made on how we plan to remedy this recommendation COPS will
provide your office with our plan.

Request

      Based on the discussion and planned actions, COPS requests resolution of
recommendations 18, 19, and 21.

         Based on the discussion and planned actions, COPS considers the subject report resolved
and requests written acceptance of this determination from your office. In addition. COPS would
like to thank you for the opportunity to review and respond to the dnill audit report. If you have
any questions, please contact me at 202-616-9771.




cc: 	   Pavlo Oborski (provided electrically)
        Grant Program Specialist
        COPS Grant Administration Division

        Judy Smith (provided electrically) 

        Tribal Team Leader 

        COPS Grant Administration Division 





                                                - 45­
David M. Sheeren. Regional Audit Manager, OIG
September 13,2006
Page9


      Richard P. Theis (provided electrically)
      Director, Audit Liaison Office
      DOJ. Justice Management Division

      Vcrlena Braxton (provided electrically)
      Administrative Assistant

      Grant and Finance Files ­
             1999HEWX0028 (TRGP- Eff)
             1999HHWX0028 (TRGP- HIRE)
             2000HEWX0042 (TRGP- Eff)
             2000HHWX0020 (TRGP - HIRE)
             200 l HMWX0008 (TMHCSI - HIRE)
             2002HEWX0049 (TRGP- E!f)
             2003HRWX0002 (THRGP}
             2003HEWX0077 (TRGP- TA)

       Audit File

ORIMT008ZZ




                                            - 46­
                                                      APPENDIX VIII



       ANALYSIS AND SUMMARY OF ACTIONS NECESSARY 

                  TO CLOSE THE REPORT 




       Pursuant to OMB Circular A-50 Revised, Audit Follow up,
responses to audit reports are defined as "written comments" by
agency officials indicating agreement or disagreement on reported
findings and recommendations. Comments indicating agreement on
final reports shall include planned corrective actions, and, where
appropriate, dates for achieving actions. Comments indicating
disagreement shall explain fully the reasons for disagreement. Where
disagreement is based on interpretation of law, regulation, or the
authority of officials to take or not to take action, the response must
include the legal basis.

1.   Resolved. This recommendation can be closed when the
$482,152 in unsupported salaries shown in Organizational Income
Statements that could not be reconciled to Personnel/Payroll Add or
Change Forms, and Request for Action Forms, for Grant No. 1999-HH­
WX-0028 are remedied.

2.   Resolved. This recommendation can be closed when the
$16,332 in unallowable salary paid to a non-COPS officer, for Grant
No. 1999-HH-WX-0028 is remedied.

3.   Resolved. This recommendation can be closed when the
$453,374 in unallowable salaries and fringe benefits for the 183 of 720
months that police officers were not employed for Grant No. 1999-HH­
WX-0028 are remedied.

4.    Resolved. This recommendation can be closed when the
$200,400 in unallowable salaries and fringe benefits that were
approved in the Financial Clearance Memorandum, but not charged to
the grant for Grant No. 1999-HH-WX-0028 are remedied.

5.    Resolved. This recommendation can be closed when the
$9,128 in unallowable fringe benefits that were charged in excess of
the amounts approved in the Financial Clearance Memorandum for
Grant No. 1999-HH-WX-0028 are remedied.


                                 - 47­
6.   Resolved. This recommendation can be closed when the
$3,743 in unallowable fringe benefits that were charged, but not
approved in the Financial Clearance Memorandum for Grant No. 1999­
HH-WX-0028 are remedied.

7.     Resolved. This recommendation can be closed when the
$446,030 in questioned costs resulting from the failure to retain five
positions for Grant No. 1999-HH-WX-0028 are remedied.

8.   Resolved. This recommendation can be closed when the
$25,143 in unsupported training and equipment costs for Grant No.
1999-HH-WX-0028 are remedied.

9.   Resolved. This recommendation can be closed when the
$11,264 in unsupported training and equipment costs for Grant No.
2000-HE-WX-0042 are remedied.

10. Resolved. This recommendation can be closed when the
$290,525 in unsupported vehicle costs resulting from incomplete
inventory records for Grant No. 2000-HE-WX-0042 are remedied.

11. Resolved. This recommendation can be closed when we
receive documentation that the grantee is maintaining property
records in accordance with the OJP Financial Guide.

12. Resolved. This recommendation can be closed when the
$114,972 in unallowable salaries paid in excess of the amount
approved in the Financial Clearance Memorandum for Grant No. 2000­
HH-WX-0020 are remedied.

13. Resolved. This recommendation can be closed when the
$8,090 in unallowable salaries paid in excess of those approved in the
Financial Clearance Memorandum for Grant No. 2001-HM-WX-0008 are
remedied.

14. Resolved. This recommendation can be closed when the
$114,562 in questioned costs for failure to retain the two officer
positions for Grant No. 2001-HM-WX-0008 are remedied.

15. Resolved. This recommendation can be closed when the
$88,654 in unsupported training and equipment costs for Grant No.
2002-HE-WX-0049 are remedied.



                                 - 48­
16. Resolved. This recommendation can be closed when the
$389,065 in unsupported vehicle costs resulting from incomplete
inventory records for Grant No. 2002-HE-WX-0049 are remedied.

17. Resolved. This recommendation can be closed when the
$16,048 in unsupported purchases for Grant No. 2003-HE-WX-0077
are remedied.

18. Resolved. This recommendation can be closed when the
$39,783 in unallowable costs for items/services not approved in the
Financial Clearance Memorandum for Grant No. 2003-HE-WX-0077 are
remedied.

19. Resolved. This recommendation can be closed when the
$15,383 in unallowable salaries and fringe benefits for positions not
approved in the Financial Clearance Memorandum for Grant No. 2003­
HE-WX-0077 are remedied.

20. Resolved. This recommendation can be closed when the
$13,480 in unsupported salary and fringe benefits for Grant No. 2003­
HE-WX-0077 are remedied.

21. Resolved. This recommendation can be closed when the
$13,287 in unallowable fringe benefits that were charged, but not
approved in the Financial Clearance Memorandum for Grant No. 2003­
HR-WX-0002 are remedied.

22. Resolved. This recommendation can be closed when the
$47,960 in unallowable salaries paid in excess of those approved in
the Financial Clearance Memorandum for Grant No. 2003-HR-WX-0002
are remedied.

23. Resolved. This recommendation can be closed when the
$9,743 in funds to better use for Workers Compensation funds that
were approved in the Financial Clearance Memorandum but not
charges for Grant No. 2001-HM-WX-0008 are remedied.

24. Resolved. This recommendation can be closed when the
$70,106 in funds to better use related to the failure to retain two
positions for Grant No. 2001-HM-WX-0008 are remedied.




                                 - 49­
